CARSON J. TUCKER, JD, MSEL
Appeals, Legal Research,
Insurance Coverage, Defense and
Recovery, and Direct Personal
Legal Representation

ATTORNEY AND COUNSELOR AT LAW
1250 W. 14 MILE RD., DPT. #3020
TROY, MI 48083-1030

___________________
cjtucker@lexfori.org
Direct +17348879261
Main +17348879260
Fax +17348879255

Admitted to Practice in the
United States Supreme Court,
Sixth Circuit Court of Appeals,
United States Courts for the
Eastern and Western Districts,
and the State of Michigan

July 23, 2021
Via First Class Mail or As Directed
Scott S. Harris, Esq.
Clerk of the United States Supreme Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Attn: Clerk of the United States Supreme Court
Re:
Case No.:

Crittenden v Crittenden, Motion for Rehearing filed with Rule 44 Certificate
20-1473

Our File No.: 8240-121120
Dear Sir:
I enclose for docketing a petition for rehearing in the above-mentioned matter. We are
filing this in compliance with the March 19, 2020 and April 15, 2020 orders of the Court. This
refiling is accompanied by the requisite Rule 44 Certifications, Proof of Service, and filing fee.
Please do not hesitate to contact me if you have any questions or require additional
information regarding this filing.
Please note we have changed our mailing address recently and are in transition to that
address listed above due to COVID-19. We are asking our clientele to communicate by email or
phone if at all possible.
Sincerely,

Enclosure(s)
CC: Counsel of Record for Respondent (via email only)

Carson J. Tucker, JD, MSEL

